<html>
<title> - THE CRISIS IN IDLIB</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]



 
                          THE CRISIS IN IDLIB

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
       THE MIDDLE EAST, NORTH AFRICA, AND INTERNATIONAL TERRORISM

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             March 11, 2020

                               __________

                           Serial No. 116-104

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
        
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]       
 
 
        


Available: http://www.foreignaffairs.house.gov/, http://docs.house.gov, 

                       or http://www.govinfo.gov
                       
                       
                       
                       
                             ______                      


             U.S. GOVERNMENT PUBLISHING OFFICE 
 39-989PDF             WASHINGTON : 2020                       
                       
                       
                       
                      COMMITTEE ON FOREIGN AFFAIRS

                   ELIOT L. ENGEL, New York, Chairman

BRAD SHERMAN, California             MICHAEL T. McCAUL, Texas, Ranking 
GREGORY W. MEEKS, New York               Member
ALBIO SIRES, New Jersey              CHRISTOPHER H. SMITH, New Jersey
GERALD E. CONNOLLY, Virginia         STEVE CHABOT, Ohio
THEODORE E. DEUTCH, Florida          JOE WILSON, South Carolina
KAREN BASS, California               SCOTT PERRY, Pennsylvania
WILLIAM KEATING, Massachusetts       TED S. YOHO, Florida
DAVID CICILLINE, Rhode Island        ADAM KINZINGER, Illinois
AMI BERA, California                 LEE ZELDIN, New York
JOAQUIN CASTRO, Texas                JIM SENSENBRENNER, Wisconsin
DINA TITUS, Nevada                   ANN WAGNER, Missouri
ADRIANO ESPAILLAT, New York          BRIAN MAST, Florida
TED LIEU, California                 FRANCIS ROONEY, Florida
SUSAN WILD, Pennsylvania             BRIAN FITZPATRICK, Pennsylvania
DEAN PHILLIPS, Minnesota             JOHN CURTIS, Utah
ILHAN OMAR, Minnesota                KEN BUCK, Colorado
COLIN ALLRED, Texas                  RON WRIGHT, Texas
ANDY LEVIN, Michigan                 GUY RESCHENTHALER, Pennsylvania
ABIGAIL SPANBERGER, Virginia         TIM BURCHETT, Tennessee
CHRISSY HOULAHAN, Pennsylvania       GREG PENCE, Indiana
TOM MALINOWSKI, New Jersey           STEVE WATKINS, Kansas
DAVID TRONE, Maryland                MIKE GUEST, Mississippi
JIM COSTA, California
JUAN VARGAS, California
VICENTE GONZALEZ, Texas

                                     

               Jason Steinbaum, Democratic Staff Director

               Brendan Shields, Republican Staff Director
                                 ------                                

   Subcommittee on the Middle East, North Africa, and International 
                               Terrorism

                 THEODORE E. DEUTCH, Florida, Chairman

GERALD E. CONNOLLY, Virginia         JOE WILSON, South Carolina, 
DAVID CICILLINE, Rhode Island            Ranking Member
TED LIEU, California                 STEVE CHABOT, Ohio
COLIN ALLRED, Texas                  ADAM KINZINGER, Illinois
TOM MALINOWSKI, New Jersey           LEE ZELDIN, New York
DAVID TRONE, Maryland                BRIAN MAST, Florida
BRAD SHERMAN, California             BRIAN FITZPATRICK, Pennsylvania
WILLIAM KEATING, Massachusetts       GUY RESCHENTHALER, Pennsylvania
JUAN VARGAS, California              STEVE WATKINS, Kansas

                  Casey Kustin, Staff Director
                                     
               
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Stroul, Ms. Dana, Shelly and Michael Kassen Fellow, Beth and 
  David Geduld Program on Arab Politics, Washington Institute for 
  Near East Policy...............................................     9
Lang, Mr. Hardin, Vice President for Programs and Policy, 
  Refugees International.........................................    15
Cafarella, Ms. Jennifer, Research Director, Institute for the 
  Study of War...................................................    28

                                APPENDIX

Hearing Notice...................................................    51
Hearing Minutes..................................................    52
Hearing Attendance...............................................    53

                        STATEMENT FOR THE RECORD

Statement for the record submitted from Representative Connolly..    54


                          THE CRISIS IN IDLIB

                       Wednesday, March 11, 2020

                           House of Representatives
Subcommittee on the Middle East, North Africa, and 
                            International Terrorism
                       Committee on Foreign Affairs
                                                    Washington, DC.

    The committee met, pursuant to notice, at 10:05 a.m., in 
room 2172 Rayburn House Office Building, Hon. Theodore E. 
Deutch (chairman of the subcommittee) presiding.
    Mr. Deutch. The Middle East, North Africa, and 
International Terrorism Subcommittee hearing on the crisis in 
Idlib will be called to order.
    I will recognize myself for the purposes of making an 
opening statement and then will yield to Mr. Wilson, the 
ranking member.
    I welcome everyone who is here today. I am grateful to the 
witnesses for appearing. We are here to hear testimony on the 
crisis in Idlib Province in northwestern Syria. And I will 
begin.
    The military assault in Idlib is a painful reminder that 
the Syrian conflict is far from over and that the international 
community must act to mitigate the humanitarian disaster in 
northwestern Syria. Since December 1st, nearly one million 
people, half of them children, have been displaced, forced to 
flee their homes in the dead of winter. Those lucky enough to 
find housing live in overcrowded conditions, often without 
electricity. The vast majority sleep in tents or out in the 
open as temperatures plunge. Small children are freezing to 
death as families crowd into any semblance of shelter.
    Assad, Russia, and Iran have violated cease-fires and have 
flagrantly disregarded international law in their assaults on 
Idlib where they have attacked hospitals, schools, shelters, 
health clinics, and residential areas. We have photos here 
today submitted by the Syrian Emergency Task Force of the 
destruction and devastation in Idlib. And I greatly appreciate 
the recent pledge of $108 million in humanitarian assistance by 
the United States.
    The Administration must now encourage our allies and 
partners to increase their contributions and meet the needs of 
those suffering in Idlib. The U.S. must also continue to 
advocate for unfettered humanitarian access, including by 
defending cross-border aid, and enhanced diplomatic efforts to 
achieve a permanent cease-fire that can lead to a final 
political settlement in Syria.
    I wrote a letter to Secretary Pompeo emphasizing these 
points and offering congressional assistance in prioritizing 
the humanitarian crisis in Idlib, and I encourage all of my 
colleagues to join me in signing it.
    There are innocent people suffering in Idlib. And I want to 
use my time today to let members hear directly from them.
    And with the ranking member's consent, I would like to play 
a message that we received from Idlib. Ms. Moumena Al Qassem is 
an English teacher at a school for orphan children in Idlib, 
supported by American communities in Arkansas and Pennsylvania. 
Moumena recorded a video for this hearing to share the pain 
that Syrians are experiencing every day. For her safety, she 
has chosen to cover her face. She is sharing her own words and 
her own thoughts with us today.
    [Video shown.]
    Mr. Deutch. Thank you, Moumena, for her bravery in 
recording this message.
    As this conflict enters its tenth year we have a lot to 
discuss today about how the United States can best assist in 
ending this war and bringing peace to Syria, and addressing the 
dire humanitarian crisis that Moumena spoke of, that the world 
must take note of.
    And, again, I am really grateful for our witnesses for 
being here to lead us in this important conversation. And I 
yield to the ranking member for his opening remarks.
    Mr. Wilson. Thank you, very much, Chairman Ted Deutch, for 
calling this important hearing on the ongoing developments in 
Idlib, Syria. I especially appreciated hearing from the 
educators you just provided and, indeed, Mr. Chairman, your 
leadership on bringing this to the attention of the American 
people.
    It is sad to me that as we begin it is very clear the 
American media has not covered this with the urgency that it 
should, as indicated by the empty table where they should be 
located. And it is just horrifying. And that is why I 
appreciate Stephanie Pendarvis and her office who has brought 
just in the last 24 hours information to me that I want the 
American people to know. That the persons affected in the Idlib 
area are 3.5 million people. That is inconceivable, that many 
people at risk.
    Additionally, the regime's attacks on the Idlib area have 
displaced a million people. And it should be noted that most 
are women, 21 percent; and children, 60 percent. This is such a 
crisis, and so obvious in the picture of the children.
    And I visited a, in Jordan a camp to see the children there 
who have fled. The two-thirds of the entire refugee population 
in the world are now in Turkey. And they are taking care of 3.6 
million Syrians in Turkey, as well as 5 million Syrians that 
are under the Syrian side of the Turkish border.
    Additionally, the humanitarian crisis and the attacking by 
Russian aircraft killing Turkish military personnel, and again 
it is sad to me--I am not critical as much as I am sad--the 
American media when they present it it is unintelligible who is 
good, who is bad, leaving out the alliance of Assad, Moscow, 
and Tehran. But, indeed, the strong efforts by our NATO ally 
Turkey to try to protect the public, and the strong 
humanitarian aid, Mr. Chairman, that you mentioned that 
President Trump has authorized, too, on top of all that we all 
have already provided, as evidenced by the video that we just 
saw.
    In nearly a decade, the world has stood by and watched as 
the barbaric Assad regime and its backers in Russia and Iran 
indiscriminately butchered the Syrian people in order to cling 
to power. They have killed nearly half a million Syrians, 
permitted countless atrocities, and perpetrated egregious war 
crimes.
    As has been said before, we need to say again that we 
should be very clear that Bashar Assad must go. The Assad 
regime is illegitimate. It has barbarically used chemical 
weapons to murder its own citizens. And the United States must 
unequivocally demand Assad leave as the first step to the 
future of a new Syria.
    For months now we have seen the situation in Idlib Province 
in Syria go from bad to worse. It is perhaps the greatest human 
rights atrocity since the beginning of Assad's genocidal 
campaign. Hospitals, schools, and humanitarian aid workers have 
been targeted routinely. Nearly one millions refugees have fled 
Russian and regime aerial bombardments, precipitating which 
could be the biggest refugee crisis in European history.
    And response to months of pro-regime escalation in Idlib 
have culminated in the Russian air strike that killed 33 
Turkish troops in late February. Turkey has launched Operation 
Spring Shield in northwest Syria. According to Turkey, this 
operation has led to the killing of over 3,000 Syrian soldiers 
and significant destruction of Syrian regime military hardware 
provided by the Russians, including 3 jets, 3 UAVs, 8 
helicopters, 135 tanks, and 5 air defense systems.
    And we need to be clear, the United States has many 
challenging and persisting--persistent disagreements with our 
ally Turkey. But I commend the Trump administration for 
supporting the Turkish operation to beat back the Assad regime. 
Secretary of State Mike Pompeo clearly stated that the U.S. 
stands with Turkish efforts to stop the Assad regime, Russia, 
and Iran in Idlib.
    It was heartening to see the Trump administration's 
Ambassador to the United Nations Kelly Craft, along with U.S. 
Special Representative for Syria Jim Jeffrey in Idlib just last 
week meeting with the White Helmets, the Syrian defense, civil 
defense. That meeting sent a strong message of support and 
solidarity to the people of Syria. It also facilitated 
important ammunition and intelligence cooperation between the 
United States and Turkey.
    Another senior Trump administration official, Joel Rayburn, 
the Deputy Assistant Secretary of State for the Levant, met 
with the Saudi Arabian Minister of Sate for Foreign Affairs 
Adel al-Jubeir, clinching Saudi support for the Turkish 
operation in Idlib.
    These diplomatic developments may be discounted, but they 
carry a lot of weight with the Syrian people who have been 
targeted for a decade as the world debates on what to do next. 
These actions are also monitored in Damascus, Moscow, and 
Tehran.
    I am grateful that in recent weeks the governments of both 
Germany and The Netherlands have expressed support for a no-fly 
zone or a protected area in Idlib, as has been provided in 
Irbil and northern Iraq previously. We need to support efforts 
that could lead to a safe haven for peaceful Syrian civilians 
and save countless lives.
    Additionally, the most humanitarian solution for Idlib and 
Syria is to help people return and stay in their homes. This 
cannot occur so long as Assad is in power. And we should insist 
that the regime be held to account and, ultimately, removed.
    I am really grateful to see that politics is stopping at 
the water's edge, led by Chairman Ted Deutch. We will be 
working together to support the people of Syria against the 
Assad regime and its backers in Russia and Iran. And I look 
forward to hearing from our experts today.
    And with that, I yield back.
    Mr. Deutch. Thank you, Mr. Wilson.
    And before we turn to the witnesses, we are grateful the 
Chairman of the Foreign Affairs Committee Eliot Engel has 
joined us. And I would be glad to yield to him for any 
statement he wishes to make.
    Chairman Engel. Thank you. Thank you, Mr. Chairman. I 
wanted very much to come here because I think this subject is 
just so important. So, thank you for calling this hearing today 
and for the opportunity to say a few words. And I heard what 
you said and what Mr. Wilson said. I certainly agree with 
everything that both of you have said.
    I have been doing a lot of work vis-a-vis Syria, and it 
breaks my heart to see what the Syrian people have gone 
through. I know there are many good Syrian American groups that 
are working very, very hard. And I commend them and I work with 
them.
    It is really hard to believe what is happening today. It is 
hard to believe it has been nearly a decade since the civil war 
erupted in Syria. And that's when many of us began focusing on 
the conflict, looking for a way to end the bloodshed and put 
the Syrian people on a path toward a brighter future.
    And there is no other way to put it, those efforts have 
really been a failure: a failure of American leadership, a 
failure of countries around the world. The Syrian people 
deserve better. Instead, 600,000 have lost their lives--
600,000. Think about that. It is almost unthinkable. Millions 
more have lost their homes, and the violence goes on, and on, 
and on.
    Assad, and Iran, and Russia, are undeterred. Assad's 
military and Russian forces continue to target hospitals, 
relief centers, and other civilian infrastructure. People flee 
and go into hospitals, and then they bomb the hospitals. It is 
just, it is horrific. And we watch in horror at what is 
happening now in Idlib where over 500,000 people have been 
displaced in the last 2 months alone and entire neighborhoods 
turned to dust.
    We see the humanitarian crisis, it is just heartbreaking. 
It is infuriating. It is frustrating.
    Ranking Member McCaul and I together have pressed Secretary 
Pompeo to take steps to push for a stop to the violence and 
demand accountability for what is happening in Idlib. While I 
appreciate Ambassador Jeffrey's announcement on Tuesday of a 
small amount of additional humanitarian aid to the area, this 
does not address the needs of the hundreds of thousands still 
fleeing the Assad regime's brutality, or help bring about a 
lasting end to this heinous conflict.
    And I must be honest, it is frustrating, there has been 
bipartisan support in Congress for dialing up pressure on the 
Assad regime and to crack down on its enablers. Finally, last 
year after years of effort, we passed the Caesar Syria 
Sanctions Bill, my bill, and it became law. We have given the 
Administration the tools, now we simply want them to use those 
tools. But the Administration, unfortunately, is sitting on its 
hands and we have seen no real strategy, no real vision to how 
this horrific crisis could be brought to an end.
    I refuse to give up hope. And as long as I am a member of 
this body I will continue to push for the end to the violence 
and suffering, and to demand that those responsible face 
justice.
    I am very grateful to this distinguished panel for sharing 
their time and their expertise. And, again, I thank our 
chairman for the time and for bringing this subcommittee's 
focus to such an important matter.
    I am pleased to be the chairman of the Foreign Affairs 
Committee. We have members on both sides of the aisle who work 
together, who understand that American cannot abandon things 
that happen in the Middle East or anyplace else. We need to be 
right up there front and center, and call it what it is. It is 
a genocide. And it is a terrible, terrible thing that is going 
on. The world is just sitting by. America has to continue to 
take a strong stance. And I will be there every step of the 
way.
    Thank you, Mr. Chairman. I yield back.
    Mr. Deutch. Thank you, Chairman Engel.
    Members of the subcommittee can give opening statements of 
up to a minute, if they choose. Mr. Chabot, you are recognized.
    Mr. Chabot. Thank you, Mr. Chairman. I thank you for 
holding this hearing.
    We are witnessing the latest crisis in the Syrian civil war 
as Assad tries to retake Idlib. I happened to be chairman of 
this subcommittee when this war began back in 2011-2012. And 
watching this thing unfold has just been horrific. And Assad 
has gone to totally barbaric lengths to regain his hold on 
power. Whether it is bombing hospitals or using chemical 
weapons against civilians, it goes on and on.
    And as members have stated, fortunately this committee has 
acted in a bipartisan manner. Unfortunately, you know, the 
world to a considerable degree has stood by and watched and not 
been willing to aid in any serious way.
    Since the beginning of December, Assad's assault on Idlib 
has sent almost a million people fleeing toward the Turkish 
border. They are living in desperate conditions, without proper 
shelter, heating, food, medical care, harsh winter coming. The 
situation there is absolutely reprehensible and needs to 
change.
    For these reasons, the United States must continue to push 
for a political solution and commit to achieving a humanitarian 
outcome.
    I yield back.
    Mr. Deutch. Thank you, Mr. Chabot.
    Mr. Cicilline, you are recognized for a minute.
    Mr. Cicilline. Thank you. I thank the chairman and the 
ranking member for holding this important hearing.
    As we enter nearly the ninth year of the Syrian civil war, 
it is apparent that the presence of foreign proxy fighters has 
further complicated the situation and resulted in a significant 
escalation of this conflict. Of course, the recent deaths of 
dozens of Turkish soldiers and the ongoing fighting in Idlib 
Province further reinforces our need to increase efforts to 
work with our partners to bring an end to this conflict.
    The human costs are difficult to exaggerate. The suffering 
of the Syrian people will of course be exacerbated by further 
fighting.
    According to the State Department, nearly a third of the 
population of Idlib has been displaced as a result of this 
crisis since December 2019, calling it, and I quote, ``the 
largest internal displacement of people that we have seen in 
such a short period of time in Syria in the whole war.''
    This is unconscionable. As Congress continues to assess 
U.S. policy in this region it is critical that we bear in mind 
the vulnerable populations affected by these actions.
    Thank you to our witnesses for being here today. I look 
forward to your views on what we can do as Members of Congress 
to help bring an end to this conflict.
    And with that, Mr. Chairman, I yield back.
    Mr. Deutch. Thank you, Mr. Cicilline.
    Any other members wishing to make opening statements?
    Seeing none, we will turn to the witnesses.
    Ms. Dana Stroul is the Shelly and Michael Kassen Fellow in 
the Washington Institute's Beth and David Geduld Program on 
Arab Politics. She previously served for 5 years as the senior 
professional staff member on the Senate Foreign Relations 
Committee, and in 2019 served as co-chair of the bipartisan 
Syria Study Group which released its final report on U.S. 
policy toward the conflict in Syria in September.
    Before working on Capitol Hill, Ms. Stroul served in the 
Middle East Policy Office of the Secretary of Defense.
    Mr. Hardin Lang is the Vice President for Programs and 
Policy at Refugees International. He has served in a number of 
United Nations peacekeeping and humanitarian field missions, 
including in Iraq, Jordan, and Lebanon.
    In Iraq he served as Chief of Staff for the International 
Organization for Migration's humanitarian and stabilization 
mission. Prior to joining Refugees International, Hardin was 
senior fellow at the Center for American Progress and the 
Center for Strategic and International Studies.
    And, finally, Ms. Jennifer Cafarella is the Research 
Director at the Institute for the Study of War. She previously 
led ISW's Syria team from 2014 to 2017, before becoming ISW's 
Director of Intelligence Planning from 2018 to 2019. She is a 
graduate of ISW's Hertog War Studies Program. She has written 
extensively on Syria, Iraq, Al Qaida, and ISIS, and regularly 
briefs military units preparing to deploy on a range of 
subjects, including Syria, ISIS, and Russia.
    Thank you all for being here today. Let me remind the 
witnesses to please limit your testimony to 5 minutes. And 
without objection, your prepared remarks will be made part of 
the hearing record. Thank you again so much for being here.
    Ms. Stroul, you are recognized.

  STATEMENT OF DANA STROUL, SHELLY AND MICHAEL KASSEN FELLOW, 
  BETH AND DAVID GEDULD PROGRAM ON ARAB POLITICS, WASHINGTON 
                 INSTITUTE FOR NEAR EAST POLICY

    Ms. Stroul. Chairman, Chairman Deutch, Ranking Member 
Wilson, distinguished members of the committee, thank you for 
holding this hearing. I am going to use my 5 minutes to do two 
things:
    First, situate the Idlib crisis in the broader context of 
U.S. interests and policies on Syria;
    Second, identify the risks and opportunities for the United 
States in Idlib.
    Idlib is the crucible of the war in Syria with implications 
for all strategic challenges to U.S. interests: competition 
with Russia, countering terrorism, denying Iran's bid for a 
long-term entrenchment, mitigating the Syrian refugee crisis, 
and protecting the rules-based international order.
    The Administration's Syria policy ostensibly remains 
focused on three objectives: defeating ISIS, expelling Iran, 
and supporting a political process to end the war. Yet, Syria 
has not been prioritized diplomatically. And the means to 
achieve these objectives has systematically been taken off the 
table: the cutoff in stabilization aid, blocked actions at the 
United Nations, and a reduced U.S. military presence in the 
northeast.
    The Administration has not changed its goals, but they are 
unachievable with less attention and less resources. In Idlib, 
the stated U.S. objective for a cease-fire is critical but 
lamentably narrow. The March 5th Russia-Turkey cease-fire 
agreement will not prevent further violence in Idlib, failed to 
mitigate the humanitarian catastrophe, and does nothing to 
address the underlying causes of the Syria war: Assad regime's 
brutality toward its own people.
    One standout trend of the war is Russia's consistent 
failure to compel Assad to adhere to any agreement. In Idlib 
the question is when, not if, the violence will reignite. Also, 
the humanitarian crisis is intentional. Assad and Russia are 
weaponizing refugees in order to force European and Arab 
governments to fund reconstruction of the Syrian State absent 
any meaningful reform.
    But, a strategic inflection point in the war might soon 
present opportunities. Considering the following:
    The Turkish military inflicted devastating damage to 
Assad's forces in Idlib. Going forward he will be constrained 
in launching new operations.
    Russian and Iranian support may be impacted by black swan 
events. The coronavirus outbreak and the Russia-Saudi OPEC feud 
have collapsed oil prices. Both of these trends will hammer the 
oil-dependent economies of Assad's backers.
    Anti-regime opposition is again stirring in the south. 
Regime-controlled areas are unstable. Russia and Iran do not 
have the resources to stabilize or rebuild Syria.
    Finally, Syria's economy continues to spiral downward, 
accelerated by the economic crisis in Lebanon and the U.S.-led 
sanctions regime. Here is the opportunity. We should start 
planning now for how we might leverage the next outbreak of 
violence to reinvigorate a political process.
    To do this, the U.S. should seek rapprochement with Turkey 
on Syria and continue to hold the line on political isolation, 
economic sanctions, and denial of reconstruction aid. Only if 
the regime credibly changes its behavior, including meaningful 
participation in the Geneva process, should we consider 
incremental steps to end Syria's diplomatic and economic 
isolation. With Turkey, now is the time to pursue a pragmatic 
solution to the S-400 issue.
    The Turkish military ably performs in Idlib, but Ankara 
still sees diplomatic and operational demonstrations of 
American and NATO support. Our consultation should focus not 
only on northwest Syria but also the northeast where the anti-
ISIS mission remains incomplete.
    The risks:
    In Idlib, the conflict will be frozen or Idlib will 
collapse. The cease-fire has created an open-air prison along 
the Turkish border housing extremists and civilians. Also, 
Assad's symbiotic relationship with Al Qaida is well known. We 
should expect that if his regime takes Idlib, extremist 
elements there will be co-opted and weaponized at a time of his 
choosing. Regime victory in Idlib enabled continuity in Iran's 
strategy for entrenching long-term interests.
    And, finally, the path to a negotiable, durable solution to 
the war is over if Assad, backed by Russia and Iran, believes 
he can win militarily in Idlib.
    In the medium to long term, at risk is the U.S.-backed 
global order. Putin aims to weaken and ultimately destroy this 
rules-and norms-based system. We know what a Russia-dominated 
Middle East looks like: Idlib, autocrats terrorizing their own 
populations, chemical weapons, mass casualty bombs, routinized 
torture, harboring of extremists, cooperation with Iran, and 
weaponization of refugees, all while enjoying protection from 
accountability at the U.N. Security Council due to the Russian 
veto.
    Russia is not a partner for peace. Yet, the trend remains--
diplomats, military officials, businesspeople in the region 
flocking to Moscow and welcoming Putin at home. This trend will 
not be reversed, or at best slowed, if the U.S. is not prepared 
to seize opportunities in Syria.
    Thank you.
    [The prepared statement of Ms. Stroul follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
       
    Mr. Deutch. Thank you very much, Mr. Stroul.
    Mr. Lang, you are recognized.

   STATEMENT OF HARDIN LANG, VICE PRESIDENT FOR PROGRAMS AND 
                 POLICY, REFUGEES INTERNATIONAL

    Mr. Lang. Thank you. I would like to thank Chairman Deutch, 
Ranking Member Wilson, and members of the subcommittee for 
holding this hearing today. I will spend my 5 minutes 
addressing the humanitarian aspects of the crisis, its 
implications, and prospects for a new cease-fire.
    As the committee well knows, President Erdogan and 
President Putin reached a cease-fire in Idlib on 5 March. While 
there have been reports of sporadic fighting along the front 
line, the cease-fire seems largely to be holding. The agreement 
brings a badly needed respite to the civilian populations of 
Idlib, however, few expect for it to hold for long.
    President Assad remains committed to regaining control over 
the entirety of Syria's territory, and Russia has demonstrated 
little interest in restraining its client in Damascus. That 
said, we must do everything we can to strengthen the cease-
fire, prolong its duration, and ease the conditions of millions 
of suffering in Idlib. Civilians in the province tell us that 
they see the Turkish intervention and the ensuing cease-fire as 
their last hope. We should listen to their voices.
    While the cease-fire has curbed the fighting, this 
humanitarian crisis continues to have devastating consequences. 
Over the course of 3 months almost one million people were 
forced from their home. That is more people than the Rohingya 
Muslim displaced in Myanmar over the last 5 years. Simply put, 
this is as bad as it gets.
    The recent fighting aggravated a dire situation where 
almost three-quarters of the population were already in need of 
humanitarian assistance. Food prices have increased 120 percent 
in the last year. Displaced are trapped in makeshift camps 
along the Turkish border where they struggle to have access to 
even basic assistance.
    Access to health care is a major challenge. The targeting 
of hospitals has significantly hampered care. The United 
Nations reports that 84 hospitals and clinics have suspended 
operations in Idlib in recent months. This means that next 
month alone an additional 100,000 people will not get medical 
care.
    But shelter is perhaps the most acute need of the 
displaced. IDPs are living in schools, mosques, unfinished 
buildings. Many families are sharing a single tent. Others are 
sleeping on the ground in very harsh winter conditions. And 
children have literally frozen to death.
    Humanitarian organizations are struggling mightily to 
respond. In January, food assistance for some 1.4 million 
people was delivered, along with health supplies for about half 
a million. All this is made possible by the U.N. cross-border 
mechanism. People in Idlib cannot be reached at this scale 
through any other means.
    The past year, Russia successfully pressured the United 
Nations Security Council to drop two of the cross-border 
points, and Russia may very well seek to cross--close the 
remaining two from Turkey into Syria. And this cannot happen.
    In addition, funding for these humanitarian relief 
operations currently falls short of what is required. In late 
February, the Secretary General told us that he needed half a 
billion to assist the displaced for only 6 months. The United 
Nations reports that we have about half of that so far.
    Throughout the campaign, Russia, and Syria, and the Syrian 
regime, have purposely targeted schools, hospitals, and 
civilian facilities. This past week a U.N. investigation 
accused Russia for the first time of direct involvement in war 
crimes in indiscriminate bombing of civilian areas. Make no 
mistake, these are war crimes and they demand accountability.
    So, what is the way forward? We have six key priorities.
    First, the United States should surge diplomatic support 
for the Turkey-Russian cease-fire and encourage our European 
and NATO allies to do the same. While we are a humanitarian 
organization, we are persuaded that strong pressure must be 
exerted on Russia and Syria if the cease-fire is to have any 
chance of lasting for any significant period of time.
    Second, we would encourage Turkey to protect civilians in 
the areas under its control. With 20,000 troops in Idlib, 
turkey has more boots on the ground than the U.N. stabilization 
and peacekeeping forces in Mali or Somalia. Turkey should 
leverage its significant presence and take measures to protect 
civilians at imminent risk of harm.
    Third, the United States should launch a full court press 
at the U.N. Security Council to ensure the renewal of cross-
border resolution and the reopening of the crossing points from 
Jordan and Iraq into Syria.
    Fourth, the United States should mobilize other donors to 
close the remaining gap of 250 million required for the 
humanitarian response. Donors should prioritize support for 
shelter, and they should look for creative ways to channel 
funding to local relief workers and to NGO's, local NGO's who 
are on the front line of this response.
    Fifth, the United States should use their tools set out in 
the Ceasar Act and other legislation to aggressively target 
those responsible for atrocities in Idlib.
    The United States should pressure other members of the 
United Nations Security Council and the European Union to 
follow suit with measures of their own.
    And, finally, we need to take steps to prepare in the event 
of the collapse of the cease-fire. This means surging aid into 
northwest Syria now while we can get access, and helping Turkey 
to prepare potentially for a new wave of refugees. The United 
States should rally European and other national donors to 
provide Turkey with the necessary support if it called upon to 
shoulder this burden.
    Thank you very much.
    [The prepared statement of Mr. Lang follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    Mr. Deutch. Thank you, Mr. Lang.
    Ms. Cafarella, you are recognized.

 STATEMENT OF JENNIFER CAFARELLA, RESEARCH DIRECTOR, INSTITUTE 
                      FOR THE STUDY OF WAR

    Ms. Cafarella. Thank you. Thank you. Chairman Deutch, 
Ranking Member Wilson, and distinguished members of this 
subcommittee, thank you for inviting me today. I am honored by 
the opportunity to testify on a critical national security 
issue facing our Nation.
    It is difficult to talk about opportunities to make a 
difference in Syria, we have missed so many, and Syrians have 
suffered so much that it seems almost unreasonable to talk of 
possibility, of hope. But I am going to anyway because the 
story of Syria is one of unreasonable bravery, of civilians so 
courageous that they dared to stand up to a tyrant they knew 
would kill them.
    We have become numb to it, to the bravery, the suffering, 
the unimaginable toll of this war. But our exhaustion does not 
change the reality. This war is far from over. Syrians have not 
given up. And there are still opportunities to change the 
trajectory of this conflict.
    As has already been mentioned, the recent mass displacement 
caused by the military campaign waged by Russia, Iran, and 
Syrian President Bashar al-Assad is the largest of the war to 
date. The humanitarian crisis that it has caused is an 
unsustainable problem for Turkey, which cannot accept more 
refugees and is instead trying to repatriate the refugees it 
does have into other parts of northern Syria. Turkey launched a 
major military intervention in late January to prevent further 
civilian displacement, coming to blows with Russia despite 
their past collaboration in Syria. It is the largest rift 
between Turkey and Russia in Syria to date.
    Turkey deployed as many as 20,000 troops to establish a 
defensible front line against Assad, Russia, and Iran. Those 
troops are now establishing the start of a safe zone along the 
border, but lack the resources to address the humanitarian 
crisis in that zone. Turkey's military pressure did succeed in 
forcing Putin into a new de-escalation agreement in Idlib, 
which was Erdogan's initial goal, but it will not last. Turkey 
likely knows as much.
    Reports of pro-regime forces violating the cease-fire have 
already started to emerge. Al Qaida-affiliated forces have also 
unsurprisingly rejected the deal, and have the ability to spoil 
its turn. The escalation cycle in Idlib will repeat again in 
coming months.
    There are good reasons not to want to help Turkey in Idlib. 
Turkey is not behaving like a NATO ally, and should not be 
treated like one until that changes. Turkey has conducted 
ethnic cleansing of Syrian Kurds along the border and purchased 
the Russian S-400 missile system. Turkey is now deliberately 
sending vulnerable Syrian refugees to Greece in an attempt to 
force Europe to support Turkey in Idlib.
    The United States should not look past this behavior 
however. Turkey's intervention creates an opportunity to help 
ameliorate a devastating and dangerous humanitarian crisis 
while accomplishing broader strategic interests. The U.S. 
should step in to support Turkey but with serious conditions. 
It is time for Turkey to step away from its relationship with 
Russia and re-commit to the NATO Alliance.
    The support the U.S. should offer Turkey in Idlib includes:
    Patriot missile systems to help establish a no-fly zone and 
deny the aerial campaign that has killed so many civilians;
    An immediate surge of vital humanitarian aid, including 
necessary supplies and equipment to react to any outbreak of 
the coronavirus or other diseases among this extremely 
vulnerable population;
    The U.S. should also lead a new fundraising effort to 
generate a humanitarian assistance fund to provide basic relief 
aid for a period of multiple years. This is a long-term 
problem.
    Finally, the U.S. should provide diplomatic pressure 
against Russia through the U.N. Security Council by submitting 
a resolution that specifies and condemns the war crimes in 
Idlib, including Russia's direct role in those atrocities. 
Russia will veto it, but forcing Russia to do so will set 
political conditions that strengthen Turkey's defensive 
position.
    The U.S. must be careful not to set unrealistic 
expectations for a Turkish-controlled zone in Idlib. It will 
not be fully stable, and it will not be fully secure. It will 
be penetrated by Al Qaida-linked groups that are already 
operating within this vulnerable population and attempting to 
recruit them.
    However, stepping in to save Syria's most vulnerable 
population is the most effective way to dampen Al Qaida's 
recruitment and to help preserve vital sources of social 
pressure against its maligned ideology.
    As I have mentioned, stepping into Idlib at this time will 
also help disrupt Russia's campaign in the Middle East, which 
is essential to preserving and strengthening the NATO Alliance.
    In return for American support, the U.S. should demand that 
Turkey agree to three terms:
    First, return or destroy the Russian S-400 air defense 
system;
    Two, leave the Russia-led Astana process for negotiations 
in Syria, and recommit to a U.N.-led process, and;
    Three, agree to start a new process of bilateral 
negotiations with the United States over the outcome in 
northeast Syria where U.S. forces continue to operate with our 
local partner, the Syrian Democratic Forces.
    These are big asks, but now is the time to make them. The 
scale of Turkey's military intervention in Idlib demonstrates 
the priority Turkey's President Erdogan places on preventing a 
further worsening of the refugee and humanitarian situation on 
the border. He has stepped up. It is time for the United States 
to do the same.
    Thank you.
    [The prepared statement of Ms. Cafarella follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
       
    Mr. Deutch. Thank you very much, Ms. Cafarella.
    We will now turn to member questioning. I will defer 
initially and I am pleased to recognize the Ranking Member Mr. 
Wilson for 5 minutes.
    Mr. Wilson. Thank you very much, Mr. Chairman. And for 
everyone here, it is extraordinarily significant that Chairman 
Eliot Engel was here. It is also a credit to Chairman Ted 
Deutch to get the big chairman to come to be with the 
subcommittee chair, and it shows indeed how significant this 
issue is and how helpful your comments are, and how we have 
such an opportunity for bipartisan cooperation to support the 
people of Syria.
    And I, again, was so grateful that the Trump administration 
Ambassador to the U.N. Kelly Craft, along with the U.S. Special 
Representative for Syria Jim Jeffrey, I just cannot even 
imagine, they were in Idlib last week. I appreciate their 
courage. I appreciate their being there as a show of support to 
the people of Syria, where at least they knew about it. Somehow 
it was not covered here.
    Additionally, very significant for the Trump administration 
with Joel Raybu8rn, the Deputy Secretary of State for the 
Levant, to meet with the Saudi Arabian Minister of State for 
Foreign Affairs to clinch Saudi support for the Turkish 
operation in Idlib. That is another extraordinary step as you 
all are recommending actions to be taken correctly.
    As we proceed with this, American taxpayers have provided 
more than $6 billion since 2011 to support the United Nations' 
humanitarian programs in Syria. Yet, instead of giving aid and 
comfort to the millions of Syrians in desperate need of 
assistance, a substantial percentage has gone to line the 
pockets of the brutal Assad dictatorship. And that is why I 
introduced H.R. 4868, the Stop U.N. Aid for Assad Act of 2019.
    Do you support the idea of pushing for accountability at 
the U.N. so that the Assad regime stops stealing from the 
victims? And what are the most important steps that the U.N. 
can take to ensure that the aid programs are run in an 
accountable and transparent manner? Beginning with Ms. Stroul.
    Ms. Stroul. Thank you for that question and for your 
leadership on this bill.
    My view is that we are reaching a very serious point this 
July, when in January Russia and China together vetoed 
Resolution 2449 which allows four cross-border access points 
into Syria. In January that was vetoed. There is not a 6-month 
Security Council resolution for only two cross-border points. 
The Secretary General provided a report to the Security Council 
about ways around that. They are not very promising.
    Come this July, Russia is aiming to close all cross-border 
access, which means that all U.N. aid and humanitarian 
operations will have to go through Damascus. And we know what 
the Assad regime does: he weaponizes that aid and steers it to 
communities not based in an unfettered, need-based way but 
based on who he wants to benefit. And it has lined the members 
of--the pockets of members of his regime.
    This is a really ugly choice for the United States in terms 
of how do we continue to provide funding to the U.N. when there 
may not be any way to reach the populations that we want to 
reach. I think we should begin exploring if there are ways 
outside the Security Council, given the fact that it has been 
rendered ineffective in holding Russia accountable for its 
actions in Syria.
    Mr. Wilson. Thank you.
    Mr. Lang.
    Mr. Lang. Thank you for the question.
    Just to echo Dana a bit on this, the bottom line is that 
assistance is being channeled in through the regime in Damascus 
and flowing through U.N. offices in Damascus. That assistance, 
the chances of it making any significant difference in the 
situation inside of Idlib are slim to none. Right? The aid 
corridor that facilitates that kind of assistance getting in is 
the cross-border mechanism
    Aid that is going to be sent through Damascus in all 
likelihood is simply going to be hijacked for the purposes of 
bringing additional pressure to bear on the civilian population 
inside of Idlib. And we have seen this sort of tool used 
repeatedly in the starve or kneel tactics that the regime has 
deployed.
    So, simply for the purposes of providing humanitarian 
assistance for the population in Idlib, I do not see that as a 
significant solution.
    Mr. Wilson. And Ms. Cafarella.
    Ms. Cafarella. I would endorse all the comments already 
made by my colleagues, and simply add that I do think that this 
is a vital issue for the United States. It speaks to Russia's 
wider efforts not only to keep the Assad regime in power, but 
to renormalize it among the international community, as well as 
to co-opt and degrade international institutions, including the 
U.N.
    This is about far more than just Syria, it is therefore 
vital that the United States hold this line or risk setting 
additional precedent that I guarantee Russia will attempt to 
use elsewhere. It is important not only, therefore, to preserve 
as many of the lives as possible that are at risk in Idlib, but 
also to preserve the rules-based international order, as Dana 
has already mentioned, that Russia is trying so hard to 
degrade.
    It is important. I applaud the Administration for what they 
have already done to prevent the renormalization of the Assad 
regime. And we need to do far more, as you have rightly noted, 
to hold accountable the U.N. and other aid organizations for 
not enabling this regime and its backers.
    Mr. Wilson. I thank each of you.
    Mr. Deutch. Thanks very much, Mr. Wilson.
    Mr. Cicilline, you are recognized for 5 minutes.
    Mr. Cicilline. Thank you, Mr. Chairman, and thank you to 
our witnesses.
    I want to speak a little bit about Turkey's capacity to 
accept additional refugees. They are currently host to almost a 
little over 3.5 million Syrian refugees. And, you know, what 
are the implications of another exodus of refugees into Syria 
both politically, in terms of the conflict, and just in terms 
of the humanitarian capacity? Ms. Stroul or Mr. Lang.
    Ms. Stroul. I will take the political and Mr. Lang----
    Mr. Cicilline. Perfect.
    Ms. Stroul [continuing]. Can take the humanitarian.
    So, clearly, Turkey and President Erdogan see this as an 
existential issue, both the economic downturn in Turkey and 
rising anti-Syrian, anti-refugee sentiment. I was just speaking 
to someone the other day who said regardless of political party 
or ethnic affiliation in Turkey, one unifier is everyone hates 
Syrian refugees in Turkey.
    So, this is a political winner for Erdogan. And Turkey 
clearly backed up its line about not having more refugees flood 
into Turkey, given the capacity and generosity it has already 
exhibited, and in pressuring Europe in the way it did by 
sending busloads toward Greece.
    Mr. Lang. There is no doubt that the government in Turkey 
is under tremendous popular pressure not to receive additional 
refugees and, in addition, to pressure refugees who are 
currently there to return into deeply unsafe circumstances. And 
we do have some examples for where the Turkish Government has 
in essence refouled refugees who are currently in Syria--
currently in Turkey back into Syria.
    That said, the question that presents itself is if and when 
the cease-fire breaks down, and if the Assad regime with 
Russian backing is able to continue its campaign. You already 
have a situation which is the best analogy is a Gazafication of 
the border and the displacement camps along that area in highly 
untenable circumstances.
    So, you know, just in terms of in line with humanitarian 
principles, we would urge the Government of Turkey to be able 
to open that border and allow some to come through if and when 
we could make additional humanitarian support available to 
those refugees when they come across.
    I mean, in many ways, you know, Syrian refugees, if they 
are confronted with the option of hundreds of thousands of 
people pushing up against the wall that they have built, trying 
to struggle to get over, flanked from behind by bombing 
campaigns by the Russians or Syrian troops, you know, that is 
going to be a tremendous amount of pressure on the Turks to 
allow folks to come in.
    Another option, and we will probably see this if the 
campaign resumes because we will see a movement of IDPs, not up 
against the line or the border with Turkey, but increasingly 
over into Afrin Province where they control the territory, 
where Turkey controls the territory significantly, and so there 
could be a push to, in essence, provide additional humanitarian 
assistance in Afrin because it is probably a place that will be 
a little bit more secure than Idlib should the offensive 
undertake again.
    Again, the key point here is that we should do everything 
in our power to maintain the cease-fire as it currently stands, 
but it will be a devastating humanitarian situation if the 
offensive resumes and Turkey does not open the border.
    Mr. Cicilline. Thank you.
    Ms. Cafarella, you listed three things the United States 
should do in exchange for additional support of Turkey, or 
should demand rather: you know, the return of the Russian 
weaponry; leaving the Russian-led process, and agreeing to a 
process led by the United States. Those seem like almost 
unachievable with respect to the current thinking of Turkey and 
President Erdogan. What prospects do you think exist really, 
and what could we do to make that more likely to make those 
three objectives potentially achievable?
    Ms. Cafarella. Thank you for the question.
    In think in some respects the United States actually needs 
to learn from the Russians in this case. Putin has strong-armed 
Erdogan into multiple agreements that favor Russia and disfavor 
Turkey because Russia has leverage over Turkey and knows how to 
use it.
    I am recommending that we start doing the same. We start 
putting options on the table that include inventive or good 
behavior from Erdogan, which does need to include not only 
addressing the humanitarian situation but also not using the 
refugee population to accomplish its objectives in ethnic 
cleansing by resettling Arab refugees in Kurdish areas. And we 
need to put coercive leverage on the table because Erdogan is 
not behaving as an ally, and he is not going to start to.
    But the scale of the demands that I am recommending we make 
of Erdogan are consistent with the scale of the demands that 
Putin has continued to make of Erdogan. It is time that we 
begin to play the actual great power politics that are underway 
in Syria and have been underway in Syria since 2015, instead of 
watching from the sidelines and hoping and wishing for enduring 
cease-fires and a political solution to the war.
    Mr. Cicilline. Thank you very much.
    And I yield back, Mr. Chairman.
    Mr. Deutch. Thank you, Mr. Cicilline.
    And I apologize, Mr. Malinowski, for not glacing at the 
monitor.
    Mr. Kinzinger followed by Mr. Malinowski.
    Mr. Kinzinger. Thank you, Mr. Chairman. And thank you all 
for being here. We are all kind of exhausted of this conflict, 
and nobody is more exhausted than the Syrian people. And the 
problem is, I think, we sometimes need to be reminded of what 
is really going on.
    You know, the media will cover when there is a picture of a 
kid in the back of an ambulance. And that gets about a week or 
two of attention. And then it gets overtaken by whatever drama 
is going on here that really in the grand scheme of things does 
not matter. And people just get bogged down in that.
    We have a candidate for U.S. president that still is 
repeating Putin's talking points that Bashar al-Assad never 
even used chemical weapons. And there are a group of people out 
there that actually believe that because they read certain 
websites, and this person is running for president and 
therefore they must have great knowledge.
    This is a bipartisan failure. This was a failure of the 
last Administration in stopping Russia from even being involved 
in Syria in the first place, from the red line situation, from 
saying good words with no action. And it has been a failure of 
this Administration for making claims that we need to be out of 
everywhere in the Middle East, bring everybody home, let the 
world burn; from the view of, you know, two different 
proclamations that we are leaving Syria, only to confuse our 
allies and excite our enemies; a lack of articulation of what 
our interest is in Syria; and the reason that it matters to us.
    It is not just because we see a picture of a kid in the 
back of an ambulance and we feel bad, but it is because it is 
in the United States' interests not to cede that ground to 
Russia, to Iran, and to allow that evil to exist.
    You know, President Clinton once said his greatest regret 
was inaction in Rwanda. And I think this generation will look 
back and say our greatest regret is inaction in Syria, not just 
because of the human toll, which is devastating, but because of 
the politics that will follow here.
    As Ms. Cafarella said, you know, we have basically every--
we will call it an empire--but every large nation that has some 
presence in Syria right now, and we see with the exchange of 
fire between Turkey and Russia that we are always on the verge 
of some major conflict. And, yet, the world is at sleep at the 
switch.
    You know who else bears a lot of blame is the entire 
continent of Europe that is feeling the effects of this and 
doing nothing, and looking to the United States to solve all 
the problems. I am for a strong U.S. foreign policy but I also 
think our allies need to have some skin in the game as well.
    We have more outrage here sometimes over what is going on 
in Yemen than we do over the 500,000 people that are dead in 
Syria. The United States accidentally bombs a hospital in 
Afghanistan and it is all over the news for 2 weeks. We do a 
debrief in the military, we find out everything that went 
wrong, we apologize, as we should. And every day Russia, backed 
by Iran, and backing the Assad regime, bomb hospitals and 
nobody cares. And people talk about maybe we need to talk with 
Russia. Maybe we need to be friends with them.
    That is the problem we see in Syria.
    And it would have been much easier to intervene earlier, 
but I will tell you that our worst case scenarios of Syria with 
intervention, that we said if we intervene look at what 
happened in Libya. Libya is far better off than Syria by the 
way. But everything we said was the worst case scenario has 
actually been tripled by inaction.
    And by the way, it is only going to get worse. This does 
not burn itself out. It is a fire in an apartment complex, not 
a fire in a house out in the country; it will catch and it will 
spread.
    Ms. Cafarella, this is obviously the worst humanitarian 
crisis since the start of this conflict. What would you say was 
the turning point in this conflict? And how did we let it get 
so bad?
    Ms. Cafarella. Thank you. That is an excellent question.
    In my view there have been multiple turning points since we 
are entering our tenth year of the war. But I would point to 
the Russian intervention in 2015. But I think the actual 
turning point was a decision, a passive decision that we made 
to cede Syria to the Russians.
    There was no reason we needed to do that. We continue to 
act like the Russians are 10 feet tall, even though the Russian 
commitment to Syria is actually quite limited and Russian 
capabilities are actually far, far smaller than the Russians 
claim and that the world seems to see.
    The Turks are demonstrating, actually, the limits of 
Russia's leverage and military capability in Syria through the 
Turkish campaign in Idlib, which has imposed costs on the 
regime but also on the Russians, because Turkey has attacked 
Russian proxy forces and destroyed Russian-provided air defense 
systems.
    So, in my view it is our inaction actually that was the 
turning point and especially with respect to the Russians. We 
are ceding, we are ceding a entire theater to a man, Putin, who 
considers the United States his top enemy. We are duping 
ourselves.
    Mr. Kinzinger. Mr. Chairman--Thank you. Mr. Chairman, I 
yield back but I do want to make a quick comment in closing to 
leverage.
    Mr. Deutch. Please.
    Mr. Kinzinger. Every time the Russians come up to a red 
line and they are pushed back--you can think of when we killed 
the Wagner Group, folks in Syria, and every time when Turkey--
as Ms. Cafarella mentioned very well--they back off. Putin will 
advance as far until he hits a brick wall. The problem is we 
have not put too many brick walls in front of him.
    So, sorry, I had more questions for all you guys, but we 
have limited time. I thank you all for being here. And, Mr. 
Chairman, I yield back.
    Mr. Deutch. Thank you, Mr. Kinzinger.
    Mr. Malinowski, you are recognized for 5 minutes.
    Mr. Malinowski. Thank you, Mr. Chairman.
    As usual, I agree with Mr. Kinzinger on this. I agree with 
Mr. Wilson that it is a shame that we do not have that many 
members of the press. And I am struck by just how much less 
attention this crisis is getting than I guess the last crisis 
that everyone paid attention to in Syria, the Turkish incursion 
into the northeast, which all of us rightly condemned. It was a 
horrible thing. It had terrible humanitarian and human rights 
consequences, but not nearly as great as what is happening in 
Idlib.
    And I think my observation on that would be that I guess it 
was easier for a lot of us, particularly, admittedly, people on 
my side of the aisle to scream and shout over what happened in 
the northeast because it was a case of Trump reversing an Obama 
policy. Whereas, in this case for us to be really, really angry 
at the Administration would require acknowledging that Obama 
also failed because the Trump policy is essentially identical 
to the Obama policy when it comes to how we deal with the Assad 
regime and Russia.
    I wanted to ask first of all, tell us a little bit--and 
this can go to anybody--tell us a little bit about the civilian 
population living in and around Idlib. And I think what I want 
to particularly bring out here is that this is a place of last 
resort from people from every part of Syria. Isn't it true that 
there are people who were bused and moved to this area from 
other parts of Syria, often at our encouragement because this 
was the last place in the country where they might be safe?
    Ms. Stroul. Yes, thank you, you are exactly right. The 
population of Idlib in 2011, before the war started, was 1.5 
million. It has doubled today. And it has doubled because all 
over Syria whenever there were de-escalation agreements or 
cease-fire agreements negotiated by Russia on behalf of the 
Assad regime, sometimes the United States was a party to those 
cease-fire agreements, not one has Assad adhered to.
    But in the context of those agreements, opposition and 
civilians were offered a choice: submit to the regime or be 
bused to Idlib. And everyone knew what life under the regime 
was like.
    Mr. Malinowski. I know. And now we are basically, you know, 
in a situation where they have to submit to the regime or flee 
in the place where we said that they would be safe.
    Well, let's get down to brass tacks. Ms. Cafarella, I 
thought you laid out the choices in a very honest way. No one 
wants to help Turkey, but Turkey is the only power willing to 
help civilians here. And so, perhaps we can leverage that.
    You mentioned deployment of Patriots. Most people think of 
Patriots as a defensive weapon against incoming missiles, but I 
think you were implying that the Patriots in northern--Patriots 
placed along the border in southern Turkey could be used to 
enforce a no-fly zone.
    Could you explain how that might work?
    Ms. Cafarella. Yes, Thank you.
    The Turks have already established some of the conditions 
necessary for a no-fly zone. The guns shooting Syrian jets out 
of the sky, the guns shooting Syrian helicopters out of the 
sky, they are likely responsible for providing manpower that 
have also shot additional Syrian jets out of the sky and which 
have forced Russia's jets to fly at even higher altitudes, 
disrupting their effectiveness.
    My general proposal is that we back Turkey in what Turkey 
is already doing, and that we provide Turkey the form of 
military support that it has requested right now, which is 
Patriot systems. That can help Turkey prepare for when, in my 
view and not if, the Russians decide to start hitting back 
against the Turks and punishing them for the intervention or 
trying to change the military balance.
    Mr. Malinowski. Including potentially on the Turkish side 
of the border. I mean, Turkey would be vulnerable to rocket, 
missile attacks the Patriots could defend against, thus giving 
them greater confidence to do what they are doing.
    Ms. Cafarella. Yes, absolutely. Also be important to show 
solidarity.
    Mr. Malinowski. Right.
    The Administration I think has suggested, or at least some 
people we have spoken to, that all the Patriots are being used 
elsewhere, including defense of U.S. troops deployed in the 
Gulf. What would be your answer to that?
    Ms. Cafarella. Sure. I would simply say that we are the 
United States of America and we are capable of making these 
decisions. The Pentagon may not want to do it, but this a 
matter of prioritization. I would never, of course, condone 
putting American troops at risk; that is not what that States 
here. There are options.
    And I think the key here is that we see Syria not only as a 
humanitarian catastrophe but the front line of NATO against 
Russia. And I find it hard to believe that there are--that 
there is reason to doubt that the front line against Russia is 
inappropriate use of those kinds of weapons systems.
    Mr. Malinowski. Thank you. Well, let me just say I agree 
basically with your proposal. I think there is--we should be 
willing to make that commitment. And because Turkey has a 
desperate need for it there is a moment of leverage that we 
should use to deal with the S-400 issue, to deal with the way 
in which they weaponize refugees to pressure other countries, 
and all of our other concerns. And I hope that the 
Administration is listening.
    Thank you so much. And I yield back.
    Mr. Deutch. Thank you, Mr. Malinowski.
    As Mr. Kinzinger leaves I just want to take a moment just 
to express my gratitude for the members' participation today. 
And in particular, I am reminded by Mr. Kinzinger and Mr. 
Malinowski how fortunate we are to have thoughtful voices on 
this committee. So, I thank, I thank you thoughtful voices on 
this committee.
    Which is an appropriate time for me to turn it over to you, 
Mr. Connolly.
    Mr. Connolly. You are so kind, Mr. Chairman. Thank you so 
much, and thank you to the panel for being here. I am sorry I 
am late. I had a hearing on my other committee on coronavirus.
    Maybe I should start with that. Ms. Stroul, what is your 
sense of how the Iranian regime has managed coronavirus in 
Iran? And has it done further damage to credibility of that 
regime with the Iranian people?
    Ms. Stroul. Well, I think, my view is that the Iranian 
regime has--sorry; good? Thank you for the question.
    The Iranian regime has done tremendous damage to its 
credibility, both with the Iranian people in the region and 
globally, starting with lying about the downing of the 
Ukrainian airliner, and now in its handling of the coronavirus. 
If you look at some of the maps of where coronavirus is 
apparently not: nothing in Syria, very little in Iran, also no 
good reports coming out of Turkey. What do some of these 
different capitals have in common: a tendency toward 
authoritarianism.
    And specifically in Iran, the mismanagement and suppression 
of information both to its own population and globally I think 
has tremendous implications both for the Middle East more 
broadly, and this is another increase in economic pressure on 
the Iranian regime given the protests and given the 
Administration's policy of maximum pressure.
    Mr. Connolly. Yes. Speaking truth to the people about a 
difficult situation, however painful it might be, is good 
advice for every country, would you not agree?
    Ms. Stroul. I wholeheartedly agree.
    Mr. Connolly. Including our own.
    Mr. Lang, 40 percent of newly displaced people have settled 
in open fields, tents, makeshift shelters, and the like. What 
is the risk of coronavirus just, like wildfire, spreading to 
that kind of situation where you have, at best, rudimentary 
hygiene, sanitary conditions, and virtually nonexistent medical 
services?
    Mr. Lang. Thank you very much for the question.
    In a word, high. In fact, very high. I think and the 
situation is not only complicated by the fact that you have so 
many people living in such close proximity to one another with 
so little infrastructure, so little sanitation, so little basic 
services that are being provided, but because the health care 
system in Idlib has been decimated, largely at the hands of 
Russian aircraft, the kinds of mechanisms that would normally 
step in to provide basic support for those kind of populations 
simply are not there.
    So, we are going to have to get extremely creative about 
how we support local aid workers, local aid groups, local 
NGO's, and even some aspects of the local health system that 
still remain, to try to get the kind of technical capacity that 
is needed to at least educate the population about how to 
comport themselves.
    But, in a nutshell, you are dealing with very little 
capacity at this stage in a population that is highly, highly 
vulnerable to this virus.
    Mr. Connolly. I really think this is something that 
deserves some attention, although there is no press here at 
all. In a highly sophisticated country like Iran where, you 
know, at a thousand cases, and we just had a hearing where Dr. 
Fauci said it is going to get worse, flat out, it is going to 
get worse, our systems are tested. We do not have enough test 
kits. Our ERs are overwhelmed. And we do not have a vaccine or 
any kind of real efficacious treatment.
    But for a vulnerable population on a field, in a tent or 
makeshift shelter of some kind, it is ready made for a virus 
like this. And it could absolutely have an impact on the entire 
region.
    And I do not know if anybody has even rung the alarm bells 
that if you do not care about refugees for their own sake, for 
their humanity and their situation, you might want to care 
about it because of the spread of a viral, and I mean that in 
both senses, infectious disease that could affect you.
    Mr. Lang. Absolutely. And, in fact, most of the 
conversation so far that has happened around the coronavirus 
with respect to refugees has been to weaponize in terms of 
using it as a reason to close borders and not to allow refugees 
to cross borders. And I think at the end of the day that is 
going to have very little to do. I mean, the doctors will tell 
us, the CDC will tell us it has very little to do with how you 
deal with containing the spread of a virus like this.
    And it is just hard to imagine that once it makes its way--
and it probably already is in a number of these displaced 
communities--that it is just not going to spread like wildfire.
    It is not hard to imagine also that even the sort of 
international humanitarian apparatus that is in place to try to 
manage the basic relief effort, I know at least in some 
theaters, you know, the international offices are making 
decisions about rotation plans and schedules, and whether or 
not people can be maintained in these areas because of the 
heightened risk. So, the entire system is going to be tested by 
this effort.
    Mr. Connolly. And, Mr. Chairman, my time is up, but just an 
observation.
    You know, there are a lot of lessons to be learned from the 
Spanish influenza of 1918. And the way that spread was through 
military combat. It started here in Kansas and it spread 
through training camps where we were mustering large groups of 
men--they were men then. And of course, when they were 
transported to Europe they brought the influenza, a transmuted 
lethal form of influenza, to Europe on both sides. And 50 
million people ended up dying, with a mortality rate that is 
the same, over 3 percent, as the current mortality rate with 
this virus, even though we have had medical advances.
    So, presumably, the combat going on in the region could 
also be, in addition to refugees, a way of spreading the virus.
    Thank you, Mr. Chairman.
    Mr. Deutch. Thank you, Mr. Connolly.
    Mr. Sherman, you are recognized for 5 minutes.
    Mr. Sherman. Today's hearing reminds us that when Assad was 
close to losing power and the ability to kill hundreds of 
thousands of people, the Government of Iran rushed in, and that 
the proper image of the government in Tehran is not the dapper 
Foreign Minister Zarif but is rather Alan Kurdi, that boy on 
the Mediterranean coast of Turkey, 2 or 3 years old, a picture 
that brought home to the world the catastrophe which continues 
in Idlib.
    We have millions of people displaced in Idlib. We need to 
make sure that our humanitarian aid goes directly to them, that 
it is not purloined by the Syrian Government. Has Turkey been 
cooperating in recent months to ensure that humanitarian 
assistance actually reaches Idlib Province?
    Ms. Stroul.
    Ms. Stroul. Hardin will be in a better position to answer 
the specifics of Turkey's provision of humanitarian aid. The 
two cross-border areas that remain open right now are along the 
Turkish-Syrian border.
    The challenge, of course, is the completely non-permissive 
environment of Idlib. So, it is incredibly difficult to deliver 
aid across the borders given the fact that you have Al Qaida, 
Al Qaida affiliates, and an active hot war with Assad backed by 
Russia and Iran every single day, not to mention the 
infrastructure and the civilian infrastructure of Idlib being 
constantly bombarded and bombed by Russia.
    Mr. Sherman. Are we sending--and I will ask anyone on the 
panel--are we sending any donations in cooperation or through 
the Syrian regime? I assume not, but I am going to ask.
    Mr. Lang. Sir, to the extent that our international 
assistance is channeled through the United Nations, there are 
elements of that assistance then that are worked through 
Damascus. That much is clear. Very little of that assistance--
in fact none--is making its way in a significant fashion to 
have impact in the situation in Idlib right now.
    Mr. Sherman. So, the U.N. is giving valuable assets to the 
war criminal in Damascus and we are contributing toward that?
    Mr. Lang. My sense is the United Nations is laboring under 
extremely difficult circumstances in Damascus, and that as part 
of the process we are trying to deliver humanitarian assistance 
to areas under government control.
    Mr. Sherman. Look, Hitler killed a lot of people, but 
delivering food to Hitler was not a way to----
    Mr. Lang. Right.
    Mr. Sherman [continuing]. To ameliorate the harm he was 
doing.
    And we continue to contribute toward U.N. programs that 
send the assets to Assad.
    Mr. Lang. We continue to----
    Mr. Sherman. And none of, and virtually none of that 
actually reaches the people, reaches the people in the 
province. Is there any good thing that happens with that U.N. 
aid?
    Mr. Lang. Sure. I would say this, and it is an extremely 
good question, and it is a very difficult set of circumstances. 
There are many populations in areas under government control 
that require humanitarian assistance. And some of that 
assistance from the United Nations is making its way to those 
populations. The question is----
    Mr. Sherman. Providing those populations swear loyalty to 
Assad?
    Mr. Lang. Or at least they are not in open dissent with 
Assad; correct.
    Mr. Sherman. Since the signing of the cease-fire agreement 
on March 4th, do we expect Turkey's troop levels to remain the 
same?
    And what is the likelihood that Turkey will be able to 
successfully maintain the agreed security corridors surrounding 
the M4 highway?
    Ms. Cafarella. Yes, I do expect that Turkey's military 
posture will remain. They have established the kinds of 
positions that indicate that they are in this for the 
foreseeable future.
    I do expect that the Turks can deliver on their side of the 
agreement with Russia. I do not expect that Russia will deliver 
on its side, in part because Russia has demonstrated an 
inability and, in some cases, an unwillingness to compel Assad 
to abide by such agreements.
    Mr. Sherman. I yield back.
    Mr. Deutch. Thank you, Mr. Sherman.
    I yield myself 5 minutes. Mr. Lang, can we take a step back 
for a minute. In a decade now, how many Syrians has Assad 
slaughtered either directly or with the support of the Russians 
and Iranians?
    Mr. Lang. We are approaching the half million mark, if not 
over.
    Mr. Deutch. Right. Half a million, 600,000, it is hard to 
even keep track.
    How many people have been forced to flee Syria?
    Mr. Lang. Over 5 million.
    Mr. Deutch. And how many have been internally displaced?
    Mr. Lang. At this stage, over 6 million.
    Mr. Deutch. Five million have fled, 6 million internally 
displaced, over half a million dead. How is it that we are 
numb, Ms. Cafarella? How is that?
    Ms. Cafarella. Well, it is unacceptable that we are numb, 
in my view. But I think that we have lost sight of who we are, 
in my view, as a Nation. We have lost sight of what we can do 
in this region. And that is partly because we have made some 
mistakes. But we have deluded ourselves into thinking that we 
cannot stand up against this guy.
    Mr. Deutch. Now, you, Ms. Cafarella, and Ms. Stroul both 
made references to this tenuous moment for the rules-based 
order. Isn't the rules-based order since the end of World War 
II, isn't the United Nations the place where the rules-based 
order should be on full display? Isn't that the, isn't that a 
safeguard?
    And isn't the United Nations Security Council the place 
that ought to be able to come together in moments like this, 
Ms. Stroul?
    Ms. Stroul. Yes.
    Mr. Deutch. And is it appropriate for us to simply say, ah, 
we are going to go to the U.N. Security Council and the 
Russians are going to veto, that is not the best use of our 
time? Is that--should that be our approach?
    Ms. Stroul. My personal view is no. I think it is worth the 
hard stakes diplomacy of forcing the Russians to veto to 
protect their----
    Mr. Deutch. Because everything we have talked about in 
terms of potential solutions, the way that we are going to 
approach Turkey, whether it is pressuring Turkey to leave 
Astana, return or destroy the S-400, work more closely with us, 
whether it is as you talked about the need for them to engage, 
for Turkey to engage more broadly. We are trying to pressure, 
we are trying to get to Geneva and move away from Astana, all 
the things we are talking about, whether it is Turkey, whether 
it is Russia, all of that can be brought together at the 
Security Council, cannot it?
    I'm just, look, I do not know, I have all kinds of 
questions about the specifics and cross-border points, and the 
specifics of the humanitarian crisis, and the needs that we--
the needs that have to be met, and the way to protect the 
border. And those are all really important.
    But the big picture here, if we are numb to it, if we do a 
hearing on this dire crisis in a country where Assad has 
slaughtered over half a million people and there is no one who 
cares, with kids freezing to death right now, isn't, isn't the 
one idea to pull this all together and marshal our resources at 
the U.N.?
    And if Russia wants to veto a Security Council resolution 
that lays out the need not just to address the humanitarian 
crisis, not just to address everything that you so eloquently 
have spoken to, but to preserve the rules-based order, then 
let's make them do it. Isn't that right?
    Ms. Stroul. Putin's goal is not to preserve the rules-based 
order. He thrives, he wins, he succeeds when that system breaks 
down. He is working with Turkey to erode NATO. What he is doing 
in Ukraine, what he did in Georgia, what he is doing now in 
Syria, all of these policies are designed to break the rules-
based order, as well as the norms-based order, so the future of 
conflict in the Middle East looks like Idlib. That benefits 
Putin and it disadvantages us and our European partners.
    Mr. Deutch. I completely agree.
    And to that end shouldn't we be making that case not just 
here and not just in Congress, and passing sanctions is 
important, but should not we be making that case in front of 
the world, and in front of, in front of Putin? Isn't that--If 
we are at a moment, and again it is one thing to be numb to a 
humanitarian crisis, and there is never an excuse for that, but 
if we are at a moment where the rules-based international order 
is at risk, and it is at risk because of what you just 
described, and what Putin has tried to do in Idlib at the same 
time that they are trying to undermine democracies all around 
the world, if that is the case isn't it time that we rally the 
world to that cause?
    Ms. Stroul. Yes. And that would require, with all respect 
to Jim Jeffrey, the Special Envoy for Syria, not just Jim 
Jeffrey, it would mean every cabinet-level official,----
    Mr. Deutch. Yes, it would.
    Ms. Stroul [continuing]. The President of the United 
States----
    Mr. Deutch. Yes, it would.
    Ms. Stroul [continuing]. Holding Russia accountable in 
every international forum, every international conference, 
making the case publicly in foreign policy speeches to the 
American people, and we are not doing that.
    Mr. Deutch. All right. Ms. Cafarella, your thoughts on 
that?
    Ms. Cafarella. I would simply add that what happens when 
the United States brings the full weight of this incredible 
country against the Russians is that Putin starts losing. He is 
only succeeding because we are not even showing up to the 
fight. It is time to show up. And it is actually time to win it 
because far more is at stake than the lives of these Syrians.
    We are talking about global conditions toward disorder. We 
are talking about another kind of catastrophe, probably on the 
scale of Syria, elsewhere in the world if these trajectories 
continue. It is time for us to hold the line.
    Mr. Deutch. And, Mr. Lang, when that happens what is the 
result from the work that you do?
    Mr. Lang. The lack of U.S. leadership at the international 
level on humanitarian issues and the rule-based order by and 
large the impact of that cannot be underestimated. We are 
seeing across the globe the failure, our inability to engage in 
a way that we used to engage on humanitarian issues, on these 
issues of peace and security.
    We have always traditionally been the large tent pole in 
this tent. And when we pulled back from that role it has a 
cascade of impacts and effects, not just in Syria, but across 
crisis zones across the world. And that lack of leadership, our 
abdication of leadership in that area, the price in 
humanitarian terms simply cannot be underestimated.
    Mr. Deutch. I want to thank the witnesses for being here 
today. I want to thank you for reminding us of what is at stake 
in Idlib and in Syria. I want to thank you for not allowing 
this subcommittee to be numb.
    And, in particular, I want to thank you for where we ended, 
which is the very fact that if we are to address this 
humanitarian crisis and lead in addressing humanitarian crises 
worldwide, and if we are going to take on this critical moment 
where the rules-based order is very much in jeopardy, it 
requires American leadership, not just Ms. Stroul, as you said, 
from Jim Jeffrey, who is doing great service for his country, 
but by everyone at the highest level in this Administration, 
including the President of the United States, and at every 
meeting.
    And it cannot, it cannot leave any question after any 
meeting that the President has with Vladimir Putin about what 
was said, what was discussed. We should not have to guess, 
because every meeting like that, and every statement should 
focus on American leadership, defending the rules-based 
international order, and always standing up to protect the most 
vulnerable.
    I want to thank the witnesses for being here. Thank you for 
your testimony.
    Members?
    Mr. Wilson. And, hey, it is amazing.
    Mr. Deutch. Mr. Wilson.
    Mr. Wilson. I want to thank the chairman, Okay. This really 
is bipartisan. And, indeed, I want to commend Jim Jeffrey but 
also Ambassador Kelly Craft. The thought of her being in Idlib 
is unimaginable, but it shows again the concern of the American 
people. But we need your assistance and the leadership of 
Chairman Deutch.
    And it was tremendous to have Chairman Eliot Engel here, 
too. That was a very significant move. And I look forward in a 
bipartisan manner as we proceed further on behalf of the people 
of Syria.
    Thank you.
    Mr. Deutch. Thank you. I thank the ranking member. I thank 
you for your leadership and your commitment.
    Members of the subcommittee, I would remind the witnesses, 
may have some additional questions. We ask the witnesses to 
please respond to those questions in writing.
    I would ask my colleagues to submit any questions that they 
have within 5 business days.
    And with that, and without objection, the subcommittee is 
adjourned.
    [Whereupon, at 11:26 a.m., the subcommittee was adjourned.]

                                APPENDIX
                                
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                                
                                


                        STATEMENT FOR THE RECORD
                        
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                        
                        


                                 <all>
</pre></body></html>
